<html>
<title> - ON THE FRONT LINES IN THE ACQUISITION WORKFORCE'S BATTLE AGAINST TAXPAYER WASTE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   ON THE FRONT LINES IN THE ACQUISITION WORKFORCE'S BATTLE AGAINST 
                             TAXPAYER WASTE

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION

                POLICY, INTERGOVERNMENTAL RELATIONS AND

                           PROCUREMENT REFORM

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2011

                               __________

                           Serial No. 112-95

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
71-963                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                    Relations and Procurement Reform

                   JAMES LANKFORD, Oklahoma, Chairman
MIKE KELLY, Pennsylvania, Vice       GERALD E. CONNOLLY, Virginia, 
    Chairman                             Ranking Minority Member
JASON CHAFFETZ, Utah                 CHRISTOPHER S. MURPHY, Connecticut
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
PATRICK MEEHAN, Pennsylvania
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 16, 2011................................     1
Statement of:
    Gordon, Daniel I., Administrator, Federal Procurement Policy, 
      Office of Management and Budget............................     9
    Hutton, John P., Director, Acquisition and Sourcing 
      Management, U.S. Government Accountability Office; Roger 
      Jordan, vice president of government relations, 
      Professional Services Council; Donna M. Jenkins, Director, 
      Federal Acquisition Institute, U.S. General Services 
      Administration; and Katrina G. McFarland, president, 
      Defense Acquisition University, Office of the Under 
      Secretary of Defense Acquisition, Technology and Logistics, 
      Department of Defense......................................    24
        Hutton, John P...........................................    24
        Jenkins, Donna M.........................................    46
        Jordan, Roger............................................    38
        McFarland, Katrina G.....................................    53
Letters, statements, etc., submitted for the record by:
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............     8
    Gordon, Daniel I., Administrator, Federal Procurement Policy, 
      Office of Management and Budget, prepared statement of.....    12
    Hutton, John P., Director, Acquisition and Sourcing 
      Management, U.S. Government Accountability Office, prepared 
      statement of...............................................    27
    Jenkins, Donna M., Director, Federal Acquisition Institute, 
      U.S. General Services Administration, prepared statement of    48
    Jordan, Roger, vice president of government relations, 
      Professional Services Council, prepared statement of.......    40
    Lankford, Hon. James, a Representative in Congress from the 
      State of Oklahoma, prepared statement of...................     4
    McFarland, Katrina G., president, Defense Acquisition 
      University, Office of the Under Secretary of Defense 
      Acquisition, Technology and Logistics, Department of 
      Defense, prepared statement of.............................    56


   ON THE FRONT LINES IN THE ACQUISITION WORKFORCE'S BATTLE AGAINST 
                             TAXPAYER WASTE

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2011

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and Procurement Reform,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:30 p.m. in 
room 2247, Rayburn House Office Building, Hon. James Lankford 
(chairman of the committee) presiding.
    Present: Representatives Lankford, Labrador, and Connolly.
    Staff present: Richard A. Beutel, senior counsel; Molly 
Boyl, parliamentarian; Sharon Casey, senior assistant clerk; 
Mark D. Marin, director of oversight; Devon Hill, minority 
staff assistant; Rory Sheehan, minority new media press 
secretary; Cecelia Thomas, minority counsel.
    Mr. Lankford. The Oversight and Government Reform Committee 
exists to secure two fundamental principles. First, Americans 
have the right to know the money Washington takes from them is 
well spent. And second, Americans deserve an efficient, 
effective government that works for them. Our duty in the 
Oversight and Government Committee is to protect these rights.
    Our solemn responsibility is to hold Government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. We will work tirelessly and in 
partnership with citizen watchdogs to deliver the facts to the 
American people and secure genuine reform to the Federal 
bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    I will make a brief opening statement. In addition to the 
nature of the workload, let me back up, the people who plan and 
prepare and issue Government contracts play a vital role in 
protecting the interests of the American taxpayer. We are all 
familiar with stories about $16 muffins and $600 hammers being 
bought by the government. But these stories often turn out to 
be more complicated than the sound bite would suggest.
    But they do reflect an underlying reality. The Government 
must have capable people overseeing these complex acquisitions 
in order to properly steward the taxpayers' money. It is 
essential to have skilled, capable people acquiring the goods 
and services necessary to run the government and to serve the 
American people. Our Federal Government is the single largest 
customer in the world. And its acquisition work force is 
grappling with a huge increase in volume. Between fiscal year 
2000 and 2008, acquisition spending by the Federal Government 
expended by 163 percent, from $205 billion to $539 billion. 
Today, procurement spending is approaching $700 billion.
    In addition to the nature of what that workload has become 
increasingly complex. Government procurement increasingly 
reflects complex services rather than just simple goods. It is 
a lot harder to acquire a complex engineering and technical 
expertise than to buy office supplies. Services, not supplies, 
now account for 70 percent of the Federal Government's 
spending.
    Many experts note the need for proper training of 
acquisition officers concerning the complex and frequently 
changing Federal contracting environment. While seismic shifts 
are occurring in the landscape of Federal acquisitions, the 
skills and tools of the Federal acquisitions work force has 
remained largely stagnant. This further places agency missions 
and taxpayer funds at risk. Improving the skills of the Federal 
acquisition work force is in the best interest of everyone 
involved: the Federal acquisition work force, the contractors, 
the government, and all taxpayers.
    Two broad reforms are being required. First, how do we 
improve Government-wide leadership in the coordination and 
development of the Federal acquisition professionals? Defense 
Acquisition University and the Federal Acquisition Institute 
play central roles in the training and shaping of the 
acquisition work force. But why does the Government has so many 
training centers? Who is coordinating the curriculum between 
the civilian and military acquisition work force to allow for 
work force mobility and advancement? Should the Government 
break training centers into centers of excellence, each 
focusing upon a specific speciality, such as creating an i.d. 
cadre? I just want to ask the question and let's find out.
    Second, beyond leadership and coordination, we must focus 
on the Government's use of tools and advanced capabilities to 
equip qualified acquisition work force professionals. Why isn't 
there a standardized contract writing tool across the whole 
Government? Why is the tracking and reporting data on the 
Federal procurement data base unreliable at times and sometime 
deficient?
    We know there are several new initiatives underway to 
improve the acquisition work force. Some of these initiatives 
include such programs as mentoring and intern programs, the use 
of flexible hiring authority, increase college recruitment 
efforts and improvements within the acquisition work force 
career track. We are going to ask what else, and is it enough 
and how is it going.
    I look forward to hearing more about these efforts today 
and working with the ranking member on the common ground that 
we do have on this very important issue. We spent a significant 
amount of time talking to people that have Government contracts 
and trying to chat on what are the solutions that they see, 
what are the things that they identify. And a lot of this 
conversation today will focus on the low-hanging fruit, what 
can we get accomplished, where should we be going, and how are 
we doing in the progress that we are making at this point.
    So with that, in perfect timing, I would like to recognize 
the distinguished ranking member, Mr. Connolly, for his opening 
statement. You missed my fabulous opening statement, Mr. 
Connolly.
    [The prepared statement of Hon. James Lankford follows:]
    [GRAPHIC] [TIFF OMITTED] 71963.001
    
    [GRAPHIC] [TIFF OMITTED] 71963.002
    
    Mr. Connolly. I will get a tape.
    Mr. Lankford. I am sure you will.
    Mr. Connolly. And tonight, when I get home.
    Mr. Lankford. That would be a terrific date night.
    Mr. Connolly. I will watch it.
    I do want to thank you, Mr. Chairman, for convening this 
hearing to review the Federal Acquisition Institute Improvement 
Act and other acquisition personnel issues. I appreciate your 
attention to the issue which is of critical importance to 
Federal employees, contractors and taxpayers.
    As you know, Senator Collins and I introduced companion 
bills to strengthen the Federal Acquisition Institute, and that 
legislation has been included in the House National Defense 
Authorization Act. I appreciate the administration's support 
for our efforts and believe this bill will support Donna 
Jenkins' efforts to strengthen FAI. I look forward to 
discussing the bill with both panels of witnesses.
    In addition to strengthening the FAI, it is appropriate 
that we would consider other acquisition work force policies 
that can improve Federal efficiency and the delivery of 
services. Chief among these are personnel policies with respect 
to recruitment, retention and compensation, which are all 
related, obviously. As the thoughtful staff memorandum for this 
hearing noted, the acquisition work force is experiencing a 
silver tsunami, in which 25 percent of employees could retire 
within the next several years. The shortage would only be 
exacerbated by mindless attempts to slash the Federal work 
force through attrition or layoffs.
    Federal agencies need to be recruiting the next generation 
of acquisition staff right now, while training existing 
personnel to adapt to a changing procurement environment which 
is more focused on services and technology. In order to recruit 
new staff and retain existing staff, it is imperative that we 
maintain competitive compensation packages in the Federal work 
force. While Federal employees may never be paid as much as 
their private sector counterparts, and indeed, we recently had 
a study that shows we have actually had deterioration in that 
ratio, we cannot allow that gap to widen so much that we lose 
our best acquisition personnel to the private sector.
    Fortunately, many individuals and agencies are leading the 
way to improve the acquisition work force. The administration's 
25 point plan for IT reform, for example, calls for the 
creation of acquisition career paths focused on technology in 
which OMB and FAI are in fact collaborating.
    DOD is hiring 10,000 new acquisition personnel over the 
next 4 years. Donna Jenkins has expanded the FAI staff from six 
to nine, a 50 percent increase, to meet the growing agency 
demands. But I hardly think that is adequate. And it is 
partnering with a diverse set of agencies to maximize the 
impact of a very small team of experts.
    The Veterans Affairs Administration has opened an 
outstanding acquisition training academy in the national 
capital region. These are all laudable efforts, and I hope we 
will learn today how best we can support them, including but 
not limited to passing the Federal Acquisition Improvement Act.
    In a recent hearing, we learned about one appalling 
consequence of a lack of contracting oversight, widespread 
human trafficking among overseas subcontractors. And again, I 
congratulate you, Mr. Chairman, for holding those delicate but 
very important hearings. We must maintain a focus on this 
issue, because whether it is human trafficking or the failure 
to hold down contract costs, our acquisition personnel are in 
the front lines on behalf of our constituents, the taxpayers.
    Thank you again for holding this important hearing, and I 
look forward to our continued collaboration on acquisition work 
force issues.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]
[GRAPHIC] [TIFF OMITTED] 71963.003

    Mr. Lankford. Thank you, Mr. Connolly. Other Members may 
have 7 days to submit opening statements or extraneous 
materials for the record.
    We will now welcome our first panel, the Honorable Dan 
Gordon. He is the Administrator of the Office of Federal 
Procurement Policy for a little while longer. Dan has been a 
forceful advocate on behalf of the acquisition work force for 
many years. In his role as OFPP Administrator, he has been a 
tireless proponent for the men and women who steward our 
taxpayer dollars. And we appreciate that.
    Recently, Dan announced his intent to leave Federal service 
to join the distinguished faculty at George Washington 
University Law School as an associate dean. It seems fitting to 
have Dan here today to discuss one of his passions, the 
acquisition work force, which was the centerpiece for his 
Senate confirmation hearing 2 years ago. I do thank you for 
your distinguished service, congratulate you on your new 
position and look forward to continuing to pick your brain in 
the days to come on the things that you see as deficiencies and 
ways we can go after this and be able to solve some of the 
problems.
    Pursuant to committee rules, witnesses will be sworn in 
before they testify. I would ask you, Mr. Gordon, if you would 
please rise and raise your right hand.
    [Witness sworn.]
    Mr. Lankford. Let the record reflect the witness answered 
in the affirmative. You may be seated.
    In order to allow time for discussion, you know the drill 
here very well, you have been here before, we would ask you to 
limit your testimony to 5 to 10 minutes, then we are going to 
pepper you with questions after that. Your entire written 
statement will be made part of the record, so feel free to be 
able to make oral statements that are above and beyond your 
written statement as well.
    We now recognize you for 5 minute for an opening statement, 
Mr. Gordon.

     STATEMENT OF DANIEL I. GORDON, ADMINISTRATOR, FEDERAL 
      PROCUREMENT POLICY, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Gordon. Chairman Lankford, Ranking Member Connolly, 
other members of the subcommittee, thank you for having me here 
today. There is nothing that I care about more in the 
acquisition system than strengthening our acquisition work 
force. It is my top priority, it is our top priority. And I'd 
like to talk about a number of points in this brief opening 
statement.
    I do want to broaden the scope a bit wider, and you will 
see what I mean in a moment, because I think it is helpful to 
have somewhat more context. As you said, Mr. Chairman, the 
Federal acquisition system spends in buying goods and services 
more than half a trillion dollars a year. That number was going 
up very fast between 2000 and 2009. I am happy to report that 
in fact, we have slowed that down so that in 2010, the number 
actually went down. And while we don't have final numbers for 
2011, it appears that they will be roughly at that lower level 
of 2010.
    The Federal acquisition work force, as you said, Mr. 
Chairman, handles that half a trillion dollars a year, and it 
is very important that they be in a position to protect the 
integrity of the Federal procurement process. That is why 
Congressman Connolly's comments resonate so much with us in 
terms of protecting and strengthening the Federal acquisition 
work force.
    When I talked about broadening the scope, I want to make 
clear that when we say the acquisition work force, we mean more 
than our contracting officers and contract specialists, what we 
in the personnel system call our 1102s. It also includes our 
contracting officer's representatives [CORs]. In some agencies, 
they are called COTARs, contracting officer's technical reps. 
They play a key role in contract management, contract 
oversight. And that is a role that has been much neglected, 
frankly, over the last quarter of a century. I want to talk a 
little bit about strengthening that COR role.
    In addition, we have project and program managers who are 
part of the acquisition work force but are often disconnected 
from the actual contracting shops.
    One of the things that we have tried to do in this 
administration is look at that entire acquisition work force 
and be sure that we are strengthening that entire work force. 
We in OMB have been at the forefront of efforts to strengthen 
the work force. As I am sure you know, the President's budget 
for 2011 and 2012 requested significant dollar investments in 
the Federal acquisition work force. And while Congress did not 
appropriate all the money that we requested, we did have some 
success in strengthening the acquisition work force at a good 
number of agencies.
    But when I talk about broadening the scope, I want to talk 
about it in a different dimension as well. Because for much of 
the last quarter of a century, when we talked about 
acquisition, we really talked about who got the contract, the 
award of the contract was usually our focus. And in this 
administration, we have tried to broaden that scope as well, so 
that we spend much more time and energy focused on acquisition 
planning. Because frankly, whether it is a large IT project or 
any other large project, when we screw up, often it is because 
we didn't do good acquisition planning.
    And then after the award of the contract, we need to do a 
much better job of contract management, to be sure that we hold 
contractors to the promises they made. They did, after all, 
sign a contract. And we need to be sure that they deliver on 
schedule, on cost and with the performance level that they 
promised us.
    Let me in the brief time that I have highlight a couple of 
the ways in which we have tried to improve acquisition planning 
in the work force. Number one, our mythbusters memo that we put 
out in February of this year talks about the need for our 
acquisition work force to listen to industry, to talk to 
industry, to have better communication with industry. We can't 
do our job properly if we are not talking to and listening to 
industry.
    Second, as Congressman Connolly pointed out, we are focused 
on strengthening specialized acquisition cadres for IT, for 
services and for others, so that the acquisition cadre can do a 
better job of planning our acquisitions and carrying them out.
    In terms of contract management, because of shortage of 
time, let me just mention that we have raised the bar for the 
standards to be a contracting officer's representative. We now 
have a three-tier certification process, so that the COR, or 
the contracting officer's representative, overseeing a very 
large contract, is someone that has the experience, that has 
the training to oversee that very large contract.
    In the area of training, you are going to have the benefit 
in the next panel of hearing from both Donna Jenkins at the 
Federal Acquisition Institute and Katrina McFarland at the 
Defense Acquisition University. I will only tell you that we 
have worked closely with both and done our best to strengthen 
their efforts and to see to it that they are working together, 
as they are, so that our taxpayer funds are being well spent.
    The fact is, as the stewards of the taxpayer dollars, we 
need to be sure that we doing everything that we can to avoid 
fraud, waste and abuse, and also to spend the money in an 
intelligent way. Our acquisition work force, if treated 
properly, if trained properly, if compensated properly, can be 
the best protection for the acquisition process. And we 
appreciate this committee's commitment to improving the 
acquisition work force.
    I am happy to answer any questions that committee members 
have.
    [The prepared statement of Mr. Gordon follows:]
    [GRAPHIC] [TIFF OMITTED] 71963.004
    
    [GRAPHIC] [TIFF OMITTED] 71963.005
    
    [GRAPHIC] [TIFF OMITTED] 71963.006
    
    [GRAPHIC] [TIFF OMITTED] 71963.007
    
    [GRAPHIC] [TIFF OMITTED] 71963.008
    
    [GRAPHIC] [TIFF OMITTED] 71963.009
    
    [GRAPHIC] [TIFF OMITTED] 71963.010
    
    Mr. Lankford. Thank you, Mr. Gordon.
    Let me recognize myself initially for a first round of 
questions. You obviously walked into this whole thing in 
motion. You inherited issues, you worked at it significantly 
for a couple of years and now you are leaving for other things.
    What is the next person coming in, what should be the first 
thing they take on? You would say, this is the low-hanging 
fruit, this is the big project that must be done right now?
    Mr. Gordon. I will tell you, Mr. Chairman, my response is 
going to be related to a point that Congressman Connolly made. 
I am very concerned, very concerned that the progress we have 
made over the past 2 years is at risk. Budgetary pressures 
risks slashing the Federal acquisition work force, whether it 
is a matter of cutting salaries, cutting benefits, showing 
disrespect for our Federal work force, cutting the numbers of 
our people, cutting the training that they are getting. We 
cannot protect the Federal acquisition process without a good 
Federal acquisition work force. And I am very concerned that 
budgetary pressures are going to unroll much of the progress 
that we have had.
    Mr. Lankford. And the task that the next person has coming 
in as far as midstream to the projects that you have, I 
understand that, because that is true of every agency, 
everything that we do in every part of America and every 
company currently. Not every, but many companies in America are 
dealing with that same issue. The next director that walks in, 
what is the project that needs to be first on their desk?
    Mr. Gordon. I think the priorities are going to remain the 
same priorities. My priority number one has been, strengthen 
the Federal acquisition work force. That means look for 
opportunities for training, it means do outreach. The second 
priority is fiscal responsibility. We need to buy less, we need 
to buy smarter. One of the benefits of buying smarter is that 
it reduces the burden on the Federal acquisition work force. 
Strategic sourcing, by having vehicles in place governmentwide 
means that individual contracting officers don't need to run 
competitions for contracts. That reduces their workload and is 
helpful.
    Rebalancing our relationship with contractors, whether it 
is improving the communication, part of mythbusters, or seeing 
to it that we are doing better contract oversight. We need to 
be sure that we have a good balance in our relationship with 
contractors. I don't think that can change.
    Mr. Lankford. Can I ask a quick question? As you are 
listening to contractors, what is the primary thing that is 
rising to the top? What are they saying the most? You say it is 
a major priority.
    Mr. Gordon. Several things. And I do spend a lot of my time 
on the road. Listening is something that I learned from my 
mother as a very important skill. I try to listen a lot, 
whether it is to contractors or Federal officials or others.
    Companies are very worried about the uncertainty of what is 
about to happen. They are very worried about the budget and how 
it is going to impact their own companies and their own 
company's work. They are very worried about unjustified 
regulation, which is why I and my colleagues have been so 
committed to being sure that we do a sensible cost benefit 
analysis before we impose new requirements. They are concerned 
about excessive reporting requirements, both coming from the 
Congress and coming from us in the executive branch.
    I think those may be the three. But I should mention in 
connection with mythbusters, because I hear this from vendors 
all the time. They are worried about communication being shut 
down. We need more communication and the companies tell me they 
are worried that in fact, too often they don't have enough 
communication.
    Mr. Lankford. Do you feel like more contractors are trying 
to get involved in the process now or fewer? Do you feel like 
we are increasing competition, more small, medium, large 
businesses are engaging in this?
    Mr. Gordon. We are certainly trying, sir.
    Mr. Lankford. I am trying to get a feel for it. Do you 
think that is occurring? I understand there is outreach that is 
happening. Do you think we are getting more people in the 
pipeline that are bidding?
    Mr. Gordon. When I look at the data, it looks like we do 
have an increase in competition and a decrease in sole source 
contracts. When I look at the number of dollars going to small 
businesses, I see increases. But boy, we have a lot more work 
to do.
    Mr. Lankford. That is a common theme that I hear with a lot 
of the folks that are in my district that are trying to get 
engaged. It is still, the hurdles and the paperwork 
requirements and the processing, it seems to be significant for 
them. Both trying to discover what is out there or that the 
rules for acquiring a contract seem to be written specifically 
for a company and they don't fit that criteria. So trying to 
get involved in that. So trying to find ways to allow more 
people to compete obviously drives the cost down and raises up 
the next generation of large companies that we are going to 
need to take on these big issues.
    Mr. Gordon. Absolutely. I will tell you that SBA has been 
working diligently, and we have been working with them, to try 
to reduce the barriers to entry. It is so tough to get into the 
Federal contracting arena. Typically for companies, the first 
contract is the toughest one to get. Once they have gotten one 
and they get a feel for how the system works, they can often 
compete and get further contracts. But breaking down the 
barriers to entry is tough. SBA is trying to simplify the 
process and to get materials online to help companies. But that 
is an ongoing challenge.
    Mr. Lankford. Okay, thank you. I yield questioning to Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome back, 
Mr. Gordon. It is good to see you again.
    As you know, I introduced H.R. 1424, the Federal 
Acquisition Improvement Act, and Senator Collins introduced a 
companion bill in the Senate, bipartisan legislation. I would 
like your views on the legislation. Will it be helpful in terms 
of the mission of your organization and work force training?
    Mr. Gordon. I will tell you, Congressman Connolly, that for 
us it is a breath of fresh air to have commitment like you have 
shown to improving training for our Federal acquisition work 
force. It is extremely important, and it is also good to see 
action up on the Hill that is bipartisan. It is also a good 
sign.
    I will tell you that over the years, as you know, the 
Federal acquisition is often a bipartisan issue. And that is a 
healthy thing for our work force.
    There are provisions in the bill that are clearly helpful. 
There has been some nervousness, frankly, on the part of people 
in my office that the bill's language would appear to make it 
look like the Office of Federal Procurement Policy would 
actually be running FAI. I don't think that was the intent, and 
we need to be sure, when the bill, if the bill is enacted, we 
need to be sure that we are able to keep having GSA in the 
important role that it has shown.
    But with that caveat, I do think that the bill sends a very 
strong signal of improving and strengthening the Federal 
Acquisition Institute.
    Mr. Connolly. Yes, just on that last point, the bill 
explicitly allows OFPP to delegate management of FAI to GSA. 
You would prefer we explicitly just have GSA manage it without 
the delegation? I guess from our point of view in drafting the 
bill, we thought you have overall management responsibility and 
therefore we didn't want to in any way denigrate that 
responsibility. We actually thought we were being helpful. But 
we obviously could rewrite it to just put it in GSA.
    Mr. Gordon. From our point of view, it makes more sense to 
keep FAI within GSA, which is the current placement. It seems 
to me that you still can get the benefits of the bill even 
leaving FAI in GSA. Because the real message of the bill is 
support for FAI. And that is very important to us.
    Mr. Connolly. None of use want to grow bureaucracy. But 
when I look, and we are going to hear in the next panel, but 
the comparison of how it is done in the defense world and how 
it is done for the rest of the civilian work force is so 
unbalanced in terms of resources committed to this mission and 
training, what is your sense about that? My understanding is, 
by default as a result, a lot of people who are in the civilian 
work force who get training end up having to go to the Defense 
Acquisition University because we simply don't have the 
wherewithal on the civilian side under FAI to do the training. 
Or at least the initial training.
    Mr. Gordon. It is a very important issue. I should tell 
you, I am not sure you know, sir, I used to be a high school 
teacher. I care a lot about teaching, I care a lot about 
training. We need our training to be useful. It doesn't help to 
give training at a time where it is not going to help or in a 
way that is not going to help.
    Online training is one of the ways to overcome the 
challenge you are talking about. And DAU, as you will hear from 
the next panel, DAU is working with FAI and others to share 
their resources in a very helpful way.
    It is true that when we have civilians go to DAU courses, 
they sometimes feel like it is not beneficial because it is so 
oriented toward DOD. But the more those two institutions talk 
together and share resources together, the further our taxpayer 
dollars are going to go. So I am pretty optimistic about that.
    Mr. Connolly. That may be a good solution for a certain 
base level of training, presumably, because a contract is a 
contract at a certain level. But once you get into the 
specialization of that contract, I am dealing with 
pharmaceutical agents and how to manage a contract on very 
delicate clinical trials and tests and outcomes and pricing or 
whatever, that has nothing to do with the mission of the 
Pentagon, presumably. And so at that level, I need a different 
level of training in order to make sure I know what I am doing 
and I am protecting the public's interest.
    Where is that specialized training, where do you think that 
belongs on the civilian side?
    Mr. Gordon. Well, every agency does some specialized 
training. Some of them do quite a bit. VA, mentioned earlier, 
VA has a terrific acquisition academy up in Frederick. Some of 
their training is VA-specific. I have been up there, I have 
listened to the interns that are there, I have talked to the 
faculty. They do a very good job. Other agencies also have 
agency-specific training. But just to be sure, I don't want 
anybody to be surprised by the facts, much of the training that 
we get is in fact from contractors. And those contractors often 
teach at all the different agencies' training. So it is the 
very same teachers in many of the courses.
    Mr. Connolly. Would the chairman indulge just one more 
question? I am assuming we don't have a second round?
    Mr. Lankford. Yes, that is correct. I would yield another 
minute.
    Mr. Connolly. I thank the Chair. While we have you, I just 
want to ask your opinion, two things concern me about 
procurement and acquisition management in the Federal 
Government. One is level of expertise, and not meaning anything 
disparaging at all. But as contracts grow more and more complex 
technologically and get larger and have all kinds of feelers 
associated with them, do we have the right people in place who 
have the training and expertise to keep up with the contractors 
we have just hired to manage it?
    Second, I am worried about internal personnel policies. 
There is terrible turnover, so there is a lack of continuity in 
the management of the contract. You could have many, many, many 
contract managers during the life of the contract. Even a brief 
life of a contract. I am concerned that with the best of 
intentions, that has a degrading effect on the quality of 
acquisition.
    Mr. Gordon. I couldn't agree more. That is why in the 25 
point plan that you alluded to earlier to improve IT 
acquisition, we committed to having a cross-disciplinary team 
that would be with the Acquisition with as little turnover as 
possible from the beginning of the acquisition planning all the 
way through contract management, so we would be sharing 
information between contracting people and IT people, and we 
would have continuity. We can't have situations where we have 
this imbalance between us and the contractors. The contractors 
know way more about it than us.
    I have to tell you, I was at a session with companies a few 
months ago. One of the fellows said to me, you know, Dan, I am 
getting so tired of training my contracting officer's 
representative how to do their job. We need to strengthen our 
people to be sure that we have a balanced relationship. The 
contractors are incredibly important. But they are supporting 
us. And we need to be knowledgeable enough to do that.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman, for your 
indulgence.
    Mr. Lankford. Thank you. Mr. Labrador.
    Mr. Labrador. Mr. Chairman, I yield back.
    Mr. Lankford. Let me make just a quick comment, then, and 
we are going to close out this panel. Thank you again for your 
service and all you have done. Your comment there, I need to 
reiterate as well. I have multiple contractors that I have 
spoken to around the central Oklahoma area that have said the 
same thing to me, that they are training the person that they 
are working with, that they are very familiar with the 
processes and procedures, and that the contracting officers and 
individuals they are dealing with seem to be very risk averse. 
They are constantly taking the safest route, and they are 
having to show them, no, this is how it is done, and they go 
back and run it down and they come back.
    The second issue we deal with is obviously something you 
alluded to as well, is retainment. They start a process with 
one person, in the middle of it they are with another one, and 
they end it with another person. The continuity of the 
decisions and the interpretation seems to move around. So those 
are not new ideas to you. Obviously those are issues that we 
will have to resolve in the days to come to be able to provide 
some sort of consistency in the process.
    Do you want to make a comment on that?
    Mr. Gordon. Just one brief comment if I could. First of 
all, I want to thank the committee for the hearing. It is a 
very important topic.
    But I also want to say, when I meet with the front line 
acquisition professionals, we have a group that we call the 
front line forum. We bring in about three dozen contracting 
officers and contract specialists from across the government, 
defense and civilian. We happen to have them coming in 
tomorrow. They come in every 3 months to the White House 
complex. I ask them, what does it look like from your point of 
view? What are your perspectives? It is incredibly important 
that we be listening to them and that we be taking steps to 
strengthen them. I believe in the Federal acquisition work 
force that they in fact, if you unleash their innovation, their 
willingness to try things, you will get good results. I know 
that GAO issued a report yesterday about our contract savings 
effort. And in that report, you will see 10 pages, GAO pages, 
so a lot of text, page after page of all the innovations, the 
good innovations that our people are doing. Whether it is 
electronic reverse auction, strategic sourcing, better 
acquisition planning, our people can do the work if they are 
only allowed to do it and given the tools to do it. Thank you.
    Mr. Lankford. Thank you, Mr. Gordon. With that, we will 
take a short break and transition to the second panel.
    [Recess.]
    Mr. Lankford. We welcome our second panel of witnesses, Mr. 
John Hutton, Director of the Acquisition and Sourcing 
Management of the U.S. Government Accountability Office; Mr. 
Roger Jordan, vice president for government relations, 
Professional Services Council; Ms. Donna Jenkins, the Director 
of the Federal Acquisition Institute of the General Services 
Administration; and Ms. Katrina McFarland, Director of the 
Defense Acquisition University.
    All of you have very busy days and I appreciate very much 
your being here and the time that you put in on both your 
written statements and being here for oral statements and 
allowing us to be able to ask questions. I hope you understand 
this will be a dialog, we want to have a chance to get as much 
information as we can.
    Pursuant to all committee rules, witnesses are sworn in 
before they testify. If you would please rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Lankford. Thank you. Let the record reflect the 
witnesses have answered in the affirmative. You may be seated.
    In order to allow time for discussion, the same rules will 
apply. We will ask you to limit your testimony to five or so 
minutes. I will be a little bit gracious with the timing on 
that, so we can hear your entire statement. Your entire written 
statement, of course, will be made part of the record on that.
    I would like to recognize Mr. Hutton for an opening 
statement.

    STATEMENTS OF JOHN P. HUTTON, DIRECTOR, ACQUISITION AND 
  SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
     ROGER JORDAN, VICE PRESIDENT OF GOVERNMENT RELATIONS, 
  PROFESSIONAL SERVICES COUNCIL; DONNA M. JENKINS, DIRECTOR, 
     FEDERAL ACQUISITION INSTITUTE, U.S. GENERAL SERVICES 
 ADMINISTRATION; AND KATRINA G. McFARLAND, PRESIDENT, DEFENSE 
   ACQUISITION UNIVERSITY, OFFICE OF THE UNDER SECRETARY OF 
 DEFENSE ACQUISITION, TECHNOLOGY AND LOGISTICS, DEPARTMENT OF 
                            DEFENSE

                  STATEMENT OF JOHN P. HUTTON

    Mr. Hutton. Thank you, Mr. Chairman.
    Chairman Lankford, Ranking Member Connolly and members of 
the subcommittee. I am pleased to be here today to discuss our 
recent work on acquisition work force issues at the Department 
of Defense, the government's largest buying entity.
    The Federal Government's current budget and long-term 
fiscal pressures underscore the importance of a highly capable 
work force. Our work has found that a lack of an adequate 
number of trained acquisition and contract oversight personnel 
has placed DOD at times at risk of potentially paying more than 
necessary.
    My remarks will focus on two topics based on our recent 
work. First, I will discuss DOD's progress in rebuilding the 
capacity of its acquisition work force. Second, I will offer 
specific insights into the Defense Contract Management Agency's 
efforts to rebuild its work force as an illustration of the 
overall challenges the Department faces.
    Our work shows that DOD has made some progress in 
rebuilding the capacity of its civilian acquisition work force. 
DOD has established a goal of increasing this work force by 
20,000 by fiscal year 2015, and DOD plans to reach its goal in 
two key ways: hiring personnel using the Defense Acquisition 
Workforce Development Fund and in-sourcing functions that were 
being performed by contractor personnel.
    Using these two methods, DOD reports that it hired about 
5,900 individuals in fiscal year 2010. However, the 
Department's plans for continued acquisition work force growth 
are uncertain. DOD announced that it has halted the in-sourcing 
initiative, except on a case by case basis, and announced a 
hiring freeze for the civilian work force due to anticipated 
budget constraints. DOD has indicated that initiatives using 
Defense Acquisition Workforce Development Fund, including 
hiring for the acquisition work force, will continue.
    But just as important as increasing the size of the work 
force is building the work force skills and expertise. We found 
that DOD has continued to make progress in completing the 
competency assessments which identify the skills and 
capabilities of the work force and help identify areas needing 
further attention. DOD reports that it has used these 
competency assessments in part to help revise the training 
curriculum for its contracting career field.
    While these actions are focused on what is considered the 
traditional acquisition work force, we have also reported that 
DOD needs to identify the other personnel outside this 
traditional work force who have a role in acquisition, such as 
those who help set the requirements, or serve as a contracting 
officer's representative to manage and oversee contractor 
performance. These are functions that are key to sound 
acquisition outcomes. DOD notes that identifying this 
population is challenging in part because it is spread across 
many organizations. Also, the acquisition duties these people 
perform are often done as a secondary duty. Nonetheless, DOD 
agreed with several of our recommendations to help it get a 
better handle on who these people are and the skills they need 
to perform their roles in the acquisition process.
    I will now briefly touch on our work-related DCMA. By the 
early 2000's, DCMA had experienced significant erosion of 
expertise, such that it could not fulfill all of its oversight 
functions. Since 2008, however, DCMA has been rebuilding its 
work force, making increasing use of the Defense Acquisition 
Workforce Development Fund to do so. For example, in fiscal 
year 2011, DCMA hired a little over 1,200 new employees under 
this authority.
    DCMA has also taken steps to rebuild their skill sets. For 
example, by the late 1990's, DCMA had lost the majority of its 
contract cost price analysts. As a result, DCMA reported that 
DOD's acquisitions were subject to unacceptable levels of cost 
risks. Over the past 2 years, DCMA has hired almost 280 new 
contract cost price analysts and cost monitors.
    One challenge facing DCMA is its large percentage of 
retirement-eligible employees, making the agency vulnerable to 
the loss of valuable technical expertise and organizational 
knowledge. In part, DCMA plans to mitigate this risk to 
aggressive recruiting and bringing back retired annuitants to 
help raise the skill levels of the newer employees.
    In closing, DOD has made some progress in terms of growing 
the acquisition work force and identifying the skills and 
competency it needs. However, more needs to be done. The fiscal 
and budget challenges facing this Nation and DOD underscore the 
need for DOD to strategically manage its work force so that it 
has the right skills, capabilities and training to effectively 
manage the billions of dollars it spends on goods and services 
each year.
    Whether DOD achieves its planned growth and unrelated work 
force improvement initiatives remains uncertain. But what its 
certain is that DOD can ill afford not to succeed in preparing 
its work force to meet its future needs. I would be happy to 
respond to any questions you may have.
    [The prepared statement of Mr. Hutton follows:]
    [GRAPHIC] [TIFF OMITTED] 71963.011
    
    [GRAPHIC] [TIFF OMITTED] 71963.012
    
    [GRAPHIC] [TIFF OMITTED] 71963.013
    
    [GRAPHIC] [TIFF OMITTED] 71963.014
    
    [GRAPHIC] [TIFF OMITTED] 71963.015
    
    [GRAPHIC] [TIFF OMITTED] 71963.016
    
    [GRAPHIC] [TIFF OMITTED] 71963.017
    
    [GRAPHIC] [TIFF OMITTED] 71963.018
    
    [GRAPHIC] [TIFF OMITTED] 71963.019
    
    [GRAPHIC] [TIFF OMITTED] 71963.020
    
    [GRAPHIC] [TIFF OMITTED] 71963.021
    
    Mr. Lankford. Thank you, Mr. Hutton.
    Mr. Jordan.

                   STATEMENT OF ROGER JORDAN

    Mr. Jordan. Chairman Lankford, Ranking Member Connolly and 
members of the subcommittee, thank you for the opportunity 
today to provide an industry perspective on the acquisition 
work force.
    I will begin by highlighting why the Federal contracting 
community believes in the need for a highly skilled, well-
trained and adequately staffed acquisition work force. Savvy 
businesses understand that the best customer is a well-
informed, educated customer. As a business, when you have a 
client that accurately defines its needs, communicates openly 
and clearly and recognizes the fundamental elements of the 
risks being adopted by your company through the partnership, 
then you have a customer you can work with best to deliver real 
capabilities and enhancements to meet their mission needs.
    But these important understandings are not always inherent. 
As the critical cog between government and the private sector, 
it is important that the acquisition work force contain the 
expertise, training, continuing education and commitment to 
collaboration that fosters successful interfaces with the 
private sector. The acquisition work force suffered as a result 
of numerous factors dating back to the mid-1990's and 
appropriately, this work force has garnered much-needed 
attention in recent years.
    As a result, there are signs of improvement that 
considerable threats to the acquisition work force remain and 
industry has a number of observations and recommendations. 
First, the biggest challenge facing the acquisition work force 
is how the government will address pending budget reductions. 
As work force reductions related to the budget scenario 
continue to be debated, PSC recommends that Federal departments 
engage in thorough human capital planning based on evaluated 
mission needs. Inclusion of the acquisition work force should 
be a critical component of such planning, and as a result, PSC 
believes agencies will discover that the acquisition work force 
should not be slashed. This certainly has been the finding of 
DOD, and as a result, their efforts have exempted cuts to the 
acquisition work force.
    Also, as budget pressures persist, Federal contracting will 
share in the burden. Savings may be achieved as government 
makes difficult decisions about what it is buying, but of 
greater significance will be decisions about how the government 
buys. For example, the administration has pushed for greater 
use of firm fixed price contracts. In conveying such guidance, 
the administration also acknowledged that the use of such 
contracts is only encouraged where suitable to the nature of 
the acquisition. However, the latter message has not 
effectively filtered down to the field, resulting in the use of 
firm fixed price contracts where inappropriate, and thus 
creating inordinate risk to contractors and high cost to 
government.
    In addition, industry has witnessed a dramatic increase in 
the use of lowest price technically acceptable awards. While 
LPTA is an important component of the acquisition tool box, its 
misapplication can lead to reduced quality in mission 
capabilities for the Government, where a focus on value may 
have produced greater benefits and long-term cost savings. To 
avoid misapplication of these approaches, PSC recommends 
training of the acquisition work force to foster critical 
thinking and strategic decisionmaking, rather than simply 
teaching strict adherence to procedures and avoiding any 
Government risk.
    In addition, for more complex procurements, those involving 
cyber security, for example, the work force must be encouraged 
to avoid over-reliance on the cheapest proposals and instead, 
being encouraged and supported when they apply appropriate 
costs and technical tradeoffs, that is, best value 
considerations.
    Communication and collaboration between the acquisition 
work force and the private sector also diminished in recent 
years. And in order to foster meaningful partnerships, such 
communication must not be permitted to deteriorate further. 
OFPP's initiation of a mythbusters campaign, part of OMB's 
broader 25 point IT management improvement plan, seeks to 
encourage and clarify how industry and government can 
appropriately engage with one another during the acquisition 
process. This is a positive development. Yet it is not readily 
apparent the message has been adopted by rank and file 
acquisition personnel. Hence, PSC recommends that OFPP take 
additional steps to buildupon the mythbusters campaign.
    Additionally, PSC encourages the examination of individual 
department efforts to increase the capabilities of their 
acquisition work force. Gains have been made on this front as 
departments have established successful internship or training 
programs. DHS and VA are two examples.
    PSC believes that Congress can take steps to enhance such 
initiatives. The Federal Acquisition Improvement Act, for 
example, would buildupon these initiatives by clarifying the 
role of FAI and governmentwide acquisition work force training 
and would increase FAI responsibilities to include 
collaboration among existing civilian agency acquisition work 
force training initiatives.
    Last, I cannot stress strongly enough the importance of 
consistent funding for the various acquisition work force 
training initiatives. Comprehensive acquisition skills are not 
developed overnight. And the efforts that have been initiated 
in recent years are not likely to yield immediate results. 
Hence, it is important that funding, staffing levels and 
education and training for the acquisition work force remain a 
priority. As a result, we strongly believe that long-term 
savings associated with the investment in the acquisition work 
force will pay future dividends that far outweigh any short-
term savings being touted as a result of acquisition work force 
cuts. And the Government will truly establish itself as the 
private sector's best customer.
    This concludes my testimony. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Jordan follows:]
    [GRAPHIC] [TIFF OMITTED] 71963.023
    
    [GRAPHIC] [TIFF OMITTED] 71963.024
    
    [GRAPHIC] [TIFF OMITTED] 71963.025
    
    [GRAPHIC] [TIFF OMITTED] 71963.026
    
    [GRAPHIC] [TIFF OMITTED] 71963.027
    
    [GRAPHIC] [TIFF OMITTED] 71963.028
    
    Mr. Lankford. Thank you, Mr. Jordan.
    Ms. Jenkins.

                   STATEMENT OF DONNA JENKINS

    Ms. Jenkins. Good afternoon, Chairman Lankford, Ranking 
Member Connolly, members of the committee. As you are aware, I 
am Donna Jenkins, the Director of the Federal Acquisition 
Institute. I am pleased to be here today to tell you about the 
progress FAI has made over the last 8 months since I have 
assumed the position.
    Taxpayers rely on the work force to make critical business 
decisions. They impact the lives of every American, from 
protecting the homeland to supporting the small businesses that 
fuel our economy. This demands an agile work force, with 
diverse and sophisticated sets of skills to define 
requirements, make complicated tradeoff decisions among 
competing alternative and manage complex projects with tight 
budget and schedule constraints.
    Agencies have shifted from buying products requiring a 
process-based procurement approach to ensure the right product 
is delivered on time to now an acquisition of complex services 
and technologies, the success of which depends on a knowledge-
based life cycle management approach. Our professionals must 
navigate an evolving commercial marketplace driven by rapid 
advances in technology, global supply chains and emerging 
security concerns. Keeping the work force's skills is 
imperative to our success.
    Improvements have been realized but we still face three 
fundamental challenges. The first, as mentioned by everybody 
else, is the demographics of the acquisition work force. We do 
have a younger, more educated work force, but they still 
require the necessary technical training to be successful. We 
also need to ensure that the seasoned half of the work force, 
expected to retire over the next 10 years, transfers their 
knowledge to the new and less experienced members.
    The second challenge is to make smart investments that 
result in shared work force management tools and use technology 
to eliminate inefficient duplication across the government. The 
third challenge is to continue to improve collaboration across 
the acquisition community. We can no longer afford for each 
agency to solve its own human capital challenges. We need to 
collectively develop tools, training and share leading 
practices to improve standardization, reduce redundancy and 
cost and cultivate a mobile work force.
    FAI has been working with key stakeholders and 
collaborating on these challenges. We are partnering with OFPP 
and the Office of Personnel Management to establish the first 
ever acquisition track in the Presidential Management Fellows 
Program for fiscal year 2012. We are reaching a broader base of 
acquisition professionals and have added new training on 
critical topics such as price analysis and human trafficking.
    For the first time, FAI is training program managers and 
contracting officer's representatives, positions critical to 
responsibly defining the government's requirement and managing 
the contracts after award. We are investing in technology that 
pays off. This month, FAI trained 5,600 acquisition work force 
members in a single session through an online Webinar. Class 
enrollment for FAI-sponsored courses increased by 30 percent in 
fiscal year 2011.
    FAI is using a risk-based approach to improve the 
certification programs. Now, the highest level of certification 
for the contracting officer's representative combines 
additional training and experience requirements to optimize the 
taxpayers' return on investment. In partnership with the 
Department of Homeland Security, FAI has launched the Federal 
Acquisition Institute Training Application System, or FAITAS. 
It is a robust work force management tool. FAITAS will 
eliminate the need for stand alone, stovepiped systems across 
government by providing agencies with a way to manage their 
work force, certifications, warrants and training delivery 
programs. Soon, agencies will be able to use the system's 
business intelligence tools to analyze the demographics of the 
work force, supporting more effective human capital planning.
    FAI has also worked to re-energize its many interagency 
committees which helps shapes the initiatives, program and 
training, so that the government only has to invest in these 
items only once.
    In conclusion, with the support and leadership of GSA and 
OFPP, FAI has delivered innovative solutions which demonstrate 
the value of cross-agency collaboration.
    I appreciate the committee's attention to this critical 
issue, and Ranking Member Connolly's proposed legislation that 
would support smart investments in the acquisition work force.
    Thank you for the opportunity to be here today and I am 
happy to answer any questions.
    [The prepared statement of Ms. Jenkins follows:]
    [GRAPHIC] [TIFF OMITTED] 71963.029
    
    [GRAPHIC] [TIFF OMITTED] 71963.030
    
    [GRAPHIC] [TIFF OMITTED] 71963.031
    
    [GRAPHIC] [TIFF OMITTED] 71963.032
    
    [GRAPHIC] [TIFF OMITTED] 71963.033
    
    Mr. Lankford. Thank you.
    Ms. McFarland.

               STATEMENT OF KATRINA G. McFARLAND

    Ms. McFarland. Chairman Lankford, Ranking Member Connolly, 
distinguished members of the committee, my name is Katrina 
McFarland, and I am the president of the Defense Acquisition 
University. I am really thankful for this opportunity to 
testify and I also appreciate your support to this very 
critical area. And also to the panel members, because they are 
right on target.
    So my testimony will be brief and focused strictly on what 
the Defense Acquisition University has seen and has developed 
on.
    The best way to ensure our warfighters get what they need 
and that our taxpayers get their money's worth and that we 
combat fraud, waste and abuse, is a well-trained and fully 
qualified acquisition work force. The defense acquisition work 
force is comprised of individuals from a broad spectrum of 
technical expertise, program and business skills and 
institutional memory. The work force is approximately 150,000 
strong, the standing army of the Potomac, and it spans 15 
career fields, program Management, systems engineering, 
logistics, contracting.
    With the draw-down in the 1990's as referenced, we left our 
acquisition work force and organizations in a significant 
reduction in capacity and capability, especially in critical 
areas like contracting, auditing, pricing, engineering. Still 
with us, this ``bathtub effect'' as has been discussed means 
that many people are leaving us with that critical expertise 
and leaving behind less experience.
    In the 1991 Defense Acquisition Workforce Improvement Act, 
DAWIA, DOD established a statutorily mandated career 
Development program for people who are formally identified in 
the Acquisition work force. This certification program consists 
of three pieces: education, experience and training. DAU 
provides the training piece of this program, which has grown 
through our 40 years of experience serving the acquisition 
community.
    DOD began a rebuild of its defense acquisition work force 
in approximately April 2009. With the help of the Defense 
Acquisition Workforce Development Fund, DAWDF, established by 
Congress in the fiscal year 2008 NDAA, we increased our work 
force capacity and began addressing our work force capacity 
concerns. But while work force size is important and skill mix 
is important, quality is paramount.
    Today we offer about 100 courses, both classroom and 
online. Entry level training is predominantly provided online 
as is continuous learning.
    We have a lot of online training that is self-paced. It 
provides knowledge management, communities of practice and is 
open to the public. Our IT infrastructure is critical in our 
ability to reach that work force 24/7 around the world.
    As a result of the funds from DAWDF, in addition to being 
able to expand our Web-based learning, DAU has been able to 
hire additional faculty and additional infrastructure for 
training and classrooms for what is our advanced defense 
acquisition training. Our faculty provide, in addition to 
training in classroom, consulting, targeted training, rapid 
deployment training and all of this to the acquisition 
organizations throughout the department and at call. A combined 
total of our Web and faculty service is tallied this year at 11 
million learning hours.
    We stay responsive to current DOD concerns. In addition to 
having recognized that Services are a larger part of what our 
spend is, we have recognized the need to provide our work force 
services acquisition training, we have developed a services 
acquisition model online. We have developed automated services 
requirements developments tool, so that you stress on what is 
important on what you want before you issue forth a 
solicitation, and deliver Services acquisition workshops across 
the department.
    We have worked this past year with the DOD inspector 
general's office and the defense and Services audit agencies to 
identify acquisition training requirements for the auditor 
community and have signed an agreement to that. We have also 
signed a memorandum with the Defense Contract Management 
Agency, Charlie Williams, to establish a new DAU college, the 
College of Contract Management, for onsite management of major 
weapons systems, contract and in-theater contract operations.
    We are increasing our training for these DOD employees that 
are not included in the statutorily mandated defense 
acquisition work force, but whose role is critical for their 
successful acquisition outcomes to be had. For example, in 
response to the 2007 NDAA, we now train those DOD employees 
responsible for generating requirements for major defense 
acquisition programs. We have also increased training for 
deployed contracting officers and contracting officer 
representatives.
    We are not alone in our training role. As you see beside 
us, we cooperate in training initiative with the Federal 
Acquisition Institute, the VA Academy, NASA, Department of 
Homeland Security, many others. We are currently working to 
achieve efficiencies in that area by sharing our curriculum, 
our IT infrastructure, governance, facilities in some cases, 
and a great number of cross agency recognition of work force 
credentials so our work force can be transitory. Our 
contracting courses are a great example of this. Specifically 
tailored for the civilian use, a process that we are expanding.
    Because DAU is a provider of practitioner training, what we 
teach particularly in classrooms is focused on what our people 
need to do on their jobs. With that, and the fact that we have 
trained and grown over the 40 years in our own learning, we 
have expanded and taken a look at how we can improve what we do 
and how we teach. We are engineering right now our next steps 
to develop a qualified acquisition professional. The 
department's most recent effort toward a fully qualified 
acquisition work force is this qualification initiative. Our 
goal is to have a work force which is both certified, which is 
formal classroom and the associated sundry testing that comes 
with it, but also to take it into the workplace environment and 
qualify those folks on the job to effectively perform their 
duties as acquisition professionals.
    We will ensure that the work force both understands the job 
when they leave the classroom and also can effectively perform 
it successfully. This qualification initiative, I might add, 
responds to a statutory mandate, Section 1723(c) of the Title 
10 U.S.C.
    Acquisition is inherently a responsibility of the 
government. And successful acquisition outcomes are critical to 
our national security. We must increase our buying power and 
deliver efficiently and affordably, and responsible stewards, 
to do the taxpayers' resources the justice it deserves. We must 
always ensure that our warfighters have products and Services 
they need to win. To do this, we need a fully qualified 
acquisition work force. The Honorable Frank Kendall has said, 
``Our legacy is to leave behind a stronger work force, a more 
capable work force than we inherited.'' I promise you, we will 
do that.
    And I thank you for this opportunity again, and welcome 
your questions.
    [The prepared statement of Ms. McFarland follows:]
    [GRAPHIC] [TIFF OMITTED] 71963.034
    
    [GRAPHIC] [TIFF OMITTED] 71963.035
    
    [GRAPHIC] [TIFF OMITTED] 71963.036
    
    [GRAPHIC] [TIFF OMITTED] 71963.037
    
    [GRAPHIC] [TIFF OMITTED] 71963.038
    
    [GRAPHIC] [TIFF OMITTED] 71963.039
    
    [GRAPHIC] [TIFF OMITTED] 71963.040
    
    [GRAPHIC] [TIFF OMITTED] 71963.041
    
    [GRAPHIC] [TIFF OMITTED] 71963.042
    
    [GRAPHIC] [TIFF OMITTED] 71963.043
    
    Mr. Lankford. Thank you, and thanks to all of you as well.
    We will probably do several rounds of questions back and 
forth, so this will be an ongoing conversation, to be able to 
pull out what we can on it.
    You gave an overall concern for me, and this is not 
something that you can solve. In the 1990's, with that 
wonderful peace dividend, we dialed back a lot of things, 
including this contracting work force. So we dialed that back, 
and just to get it dialed back and reduce our numbers in time 
for September 11th, when we dramatically increased the number 
of contracts that are out there. So we spent 10 years trying to 
catch up on personnel and training, about the time that we now 
start to slow down our purchasing again.
    How do we hit a balance on this so that we do not overreact 
in the same way, that we suddenly dramatically increase our 
numbers and our training and all the investment into it, overdo 
that, if that is imaginable right now, and get out of balance 
again? Any quick ideas on that, on how we manage that in the 
days to come? Because I would hate to see us 10 years from now 
go through a cut and go through the same cycle again.
    Mr. Hutton.
    Mr. Hutton. Mr. Chairman, the way I would frame that 
question is, to make an intelligent decision, one needs to know 
at each agency what you are buying, what your current 
capability is in terms of an acquisition work force, and what 
are your needs to assure yourself you are going to get good 
outcomes for what you need to buy. The extent to which you have 
gaps, I think you need to identify those.
    Mr. Lankford. Who is the best person to track that? Is that 
the agency head in each area? Or who can best determine that?
    Mr. Hutton. I think it starts at the agency. I think the 
procurement officials, I think other stakeholders such as human 
capital people, people from the CFO shop, I think it takes a 
team like that to put it at a high enough level in an 
organization to have a good understanding of what the condition 
is right now.
    Also you need to look at the demographics. If you have a 
lot of senior people in the organization, and as it has been 
discussed here before, bringing in a lot of new people, they 
can get the initial training, but they need that experience. 
They need that mentoring.
    Mr. Lankford. Right. That comes up consistently in a lot of 
the conversations that I have with contractors. It is the, we 
understand the process better than the person that is actually 
working through our contract. And it is because they are 
occasionally getting someone new. And as they work through that 
system, it is frustrating for them, because they are saying, 
no, this is how it is done. It is frustrating because they know 
there is flexibility in contracting vehicles, and they get 
frustrated, Mr. Jordan, I think you mentioned the fixed price 
vehicle as being preferential.
    So all that challenge is something you have to work through 
with training and age and experience and all those things that 
you all live and breathe every single day to be able to work 
through. It is getting that down to every single person in the 
organization. Tell me how you feel like progress is being made 
in that. I am hearing some optimism in that, and obviously you 
are very aware of this. I am not the first to bring it up, by 
far.
    Mr. Jordan, do you want to mention that real quick? You had 
already brought it up.
    Mr. Jordan. Chairman, I will start with the mythbusting 
campaign. There was a significant deterioration in the 
communication between industry and government dating back 
several years. And the mythbusting campaign has really started 
to turn that around. I still think it needs to be an additional 
focus. Like I said, the direction from leadership has been 
right. But how that message has permeated down through the 
field has been, it has been a little slower. I think that Mr. 
Gordon has recognized that, and recognized that that needs to 
be an additional area of focus.
    So I would start with that and I think that with the drive 
toward more firm fixed price contracts, again, it is not 
necessarily the guidance from leadership has been wrong. They 
have said, we want you to focus more on firm fixed price but 
use it where it is appropriate.
    Mr. Lankford. Well, yes, what I have heard back from 
contractors is, I am glad to do it firm fixed price, but it is 
going to cost more, because I don't know what the risk is 
involved. Whereas another vehicle may be, and I understand this 
is a reaction in the other direction, but I can't tell you how 
many times I have heard that. I am glad to do it, but I am 
going to always charge more for this, because I am assuming all 
the risk.
    Mr. Jordan. That is true. So it comes back to the guidance 
from leadership about using it where it is appropriate. And 
that guidance has been right. But again, the full message is 
not filtering all the way down to the people that it needs to 
filter down to.
    Mr. Lankford. Ms. Jenkins, Ms. McFarland, either one, how 
do we work through that? Because obviously that has to be 
someone with clairvoyance to be able to determine which one is 
going to be cheaper and which one is going to be better for the 
taxpayer at the end of the it. So I understand there is not 
going to be a perfect way to be able to determine that. What is 
your suggestion on how to process through that?
    Ms. McFarland. Well, I am going to start, if I could, back 
on the original premise, which is, how do we get there. How do 
we get, in the midst of this economic decline, attention to the 
detail that you brought to the attention of the work force's 
competency. And I think one of the things the Department of 
Defense has done, under the guidance of Dr. Carter and Mr. 
Kendall, has, with the recognition of the outfall of a lot of 
the better buying power initiatives, was this sudden 
recognition that the work force wasn't up to the par to be able 
to perform the duties that this policy, which was accurately 
written, was intended to outcome wise.
    So one of the things they did was, with the university, to 
step up that. And another thing is, the services themselves are 
taking a very, very conscious and disciplined approach to take 
a look at their Workforce and where their needs are. What can 
you do to improve it? Well, fixed price, for example, you need 
to explain to people where they get the resources to help them 
understand, which is related to why you would go into a fixed 
price arena, cost and price certainty. You have to have a good 
understanding of the configuration of the item before you try 
to engage in a fixed price situation. And unfortunately, 
people, just as Mr. Jordan said, engaged in the act of 
compliance by act of understanding. That critical thinking is 
one of our challenges.
    Mr. Lankford. I am going to defer to Mr. Connolly for a 
series of questions, then I will come back and we will finish 
this up.
    Mr. Connolly. Thank you, Mr. Chairman. Before you start the 
clock, just for a second, this whole conversation reminds me of 
the story John Glenn used to tell. I used to work with John 
Glenn in the Senate. When he was sent into space, he was in a 
capsule on top of a rocket with hundreds of thousands of pounds 
of thrust, comforted in the knowledge that both had been won by 
the lowest Federal bidder. So contracting was even on his mind 
way back then.
    I want to thank our panel for being here. Let me just ask 
this first question, if I may. Ms. McFarland, I am listening to 
your statistics, which are very impressive, 100 courses, 11 
million learning hours. How many people trained this last year?
    Ms. McFarland. This year, 57,000 seats went through.
    Mr. Connolly. Fifty-seven thousand. Wow. And I want to 
thank Mr. Jordan and Ms. Jenkins for their kind remarks with 
respect to the FAI Improvement Act. Do you have any view on how 
that might make your job easier, harder? Or you don't care?
    Ms. McFarland. Personally, I think it is an excellent 
opportunity for improvement. Working with Donna and 
particularly, I am sorely disappointed Dan is going, because he 
has been a bright light. And the support that you all have been 
providing for this area has certainly moved us forward. And it 
needs to continue to move forward.
    Mr. Connolly. Thank you.
    Ms. McFarland. And H.R. 1424 has the right emphasis and it 
excludes the DOD appropriately. So it looks for, in my personal 
view, excellent support.
    Mr. Connolly. Thank you very much. And Ms. Jenkins, you 
gave a wonderful example of an online training program with 
5,600 people in one session, very impressive. How many were 
totally trained this year, would you venture to guess?
    Ms. Jenkins. So we did 7,000 actual seat classes. And then 
the civilian work force has continued to benefit from the FAI-
DAU partnership, completing 87,000 online course modules at 
Defense.
    Mr. Connolly. Is it your impression that if you, I am not 
trying to set it up, but if you had augmented resources, that 
you might be able to meet a much larger population, I mean, DAU 
is doing 57,000 a year. Is there a demand that is unmet, is 
what I am getting at?
    Ms. Jenkins. We do appreciate the support that you provide 
the work force. I think we all want the same thing, a competent 
and efficient acquisition work force to be good stewards of the 
taxpayer dollars. FAI has a slightly different role, in that we 
don't do organic teaching, we don't teach the classes 
ourselves. We hire our vendor support. So in collaboration with 
a number of the other Federal agencies, we assist them by 
setting the standards that they must all meet, which is a 
little bit different role than, for instance, the VA Academy or 
the large training program that exists at DHS and NASA, just to 
name a few of the other agencies.
    So I think as long as we are all training to the same set 
of standards that we work collaboratively together, we can meet 
our need.
    Mr. Connolly. Would it be fair to say that, for example, an 
online class, like the one you cited, and I have taken those 
myself when I was in the private sector, a lot of that, either 
entry level or continuing learning kinds of classes, but 
sometimes there is no substitute for in the classroom technical 
training to make sure I am mastering what I need to master? 
Would that be a fair observation from your point of view?
    Ms. Jenkins. I think general, yes, you are absolutely 
correct.
    Mr. Connolly. And would it also be true that virtually 
every Federal agency, despite the wonderful work of DAU and 
FAI, still needs to have its own specialized training, because 
the VA mission is different from FDA?
    Ms. Jenkins. Yes, I would agree with that. And I see the 
role of FAI there as being a collaborative. Because there is 
still even a baseline portion of the training program that 
would be consistent across all the Federal agencies. So I am 
very excited to actually say that the chief acquisition 
officer's counsel just approved us to do what we call a 
training collaboration board, or to establish a training 
collaboration board. What that would do would be allow us to 
discuss any developmental items, any courses we are going to 
develop, and we would be able to, say, come up with an 80 
percent solution once and then leave the room for agencies to 
add, if there are specific mission requirements in the 
remaining portion. I think that is a good role for FAI.
    Mr. Connolly. Thank you.
    Mr. Jordan, you heard Mr. Gordon actually observe that in 
his conversations with many contractors, he has heard 
frequently how tired they are of having to train Federal 
contract officers on the contracts they are managing. Is that 
something you also hear at the Professional Services Council in 
terms of the members you represent? And any other observation 
you have about that?
    Mr. Jordan. Absolutely. We hear a lot of the same. It comes 
back to my opening comments about the need or the desire for a 
well-educated customer is really our best customer. We do find 
that we are having to do a lot of explaining, a lot of 
educating ourselves, on some acquisition-related issues. It 
would certainly be beneficial to both sides if that training or 
understanding is brought to the table in advance so that we can 
get to the process of contracting versus educating.
    Mr. Connolly. My time is up, Mr. Chairman.
    Mr. Lankford. Thank you.
    Let me ask a question. How do we move into a couple of 
things. One is best value for something, and the best value is 
this wonderful, nebulous concept that everyone has to have open 
for conversation. But as we deal with the best value, how do we 
move from best value as cheapest this year versus cheapest in 
10 years, or maybe most efficient in 10 years, or has a greater 
life expectancy? Because things are different, energy usages, 
some may be more efficient in their energy usages, it may be 
made of better equipment, and so it is going to last longer. 
Those are pure judgment calls.
    How is the criteria set, and for the evaluation of that 
contracting officer to say, this was actually, I guess what I 
am asking is, is there a second guesser in this to go back and 
teach them and say, you made this decision, this one was 
cheaper than this one. But by the way, as I go back and look at 
everything, I think this would have been a better deal because 
of this. Do they give that, is there someone that's stepping 
over their shoulder and helping train them in that? Is there 
some way to be able to evaluate that? I think you understand 
where I am.
    Ms. McFarland. Yes, I do, sir. One of the things the 
department has to build into its acquisition process like DOD 
5000 is milestones and decision point to facilitate life cycle 
costs, which is what you are talking about, best value. And we 
have not the contracting officer inclined to make that 
determination, it is a team. Because the engineer needs to 
understand what the trades are, the logistician, the pricer, 
the coster.
    So when there's a source selection to be made, that is, 
when you are deciding upon what you are going to buy, those 
people come together in consensus. Then the department has to 
take a look at it from the administration's view. So when they 
come forward to make a decision, it is not just the local 
decision, it is the organizations and department decision.
    Mr. Lankford. So do you feel like we are on top of this at 
this point, or do you feel like it is improving, or where do 
you think we are in this process?
    Ms. McFarland. It will and has improved. Is it improving as 
fast as we need it? No. In the midst of this decline, we will 
have challenges.
    Mr. Lankford. Okay. Same with FAI? Or are there other 
comments you want to make?
    Ms. Jenkins. Sir, no, I couldn't agree more with Ms. 
McFarland's statements. I think the challenges in the civilian 
agencies is that we don't have a baseline process like the DOD 
5000 that as a civilian Federal Government we all follow. So 
FAI is working very hard to establish some baseline processes 
that are just good business decisions, that then regardless of 
what agency you are at or you are buying, we can drive those 
kinds of milestone decision type choices.
    Mr. Lankford. Okay. Mr. Jordan.
    Mr. Jordan. Mr. Chairman, I think the real threat to best 
value, and it is coming, as budgets get tighter, there is a 
downward pressure on costs and there is a tendency to focus on 
short-term savings in terms of those long-term life cycle 
costs. So I think everybody needs to be cognizant of okay, 
let's not focus on the short term, let's keep our focus on 
long-term savings.
    Mr. Lankford. Right. Part of that is how that contracting 
officer is affirmed, how they are encouraged. If they are 
encouraged based on speed and number that they got done, if 
they are encouraged based on the final price obviously that 
makes a huge difference. Or if there is some way to be able to 
affirm them, and you made a good judgment here, this was a 
tough one, to be able to get it done.
    I hear lots of stories on, that that person is risk averse, 
they are going to do whatever is safest, they are going to work 
with a contractor they know, it is very difficult to be able to 
break in as a new person or a new company getting in the mix. 
People that are not the prime, they are trying to work to get 
to the prime, they have a sub out there at some point, and have 
had it for 5, 6 years, everyone knows they are doing a good job 
but can't ever break in, these same stories seem to be 
replicated, one person after another that I talk with in the 
process.
    So some of that is, again, I can't imagine the first person 
bringing this up, but it is how do we get down into that level, 
to train them to help new companies jump into the process and 
move into that. Because it obviously saves us money, to not 
have the middle man just in the transition. But it adds more 
work to that contracting officer, because now he is not 
grouping a whole bunch of things together and getting that off 
his desk. Now he has to deal with multiple smaller, but it also 
is cheaper for us.
    Yes, Mr. Hutton.
    Mr. Hutton. Mr. Chairman, a lot rides on the requirement 
and how well you define that requirement up front. And we 
issued a report a couple of months ago that just looked at the 
acquisition planning process. I think you are kind of talking 
about some of the things that we observed, is that the planning 
doesn't start soon enough. Because when you start sooner, you 
can be more thoughtful about the process, what is it we are 
going to buy, what is the best approach to buy it.
    You also allow more time for competition. You also allow 
more time if you have someone with a critical eye taking a look 
at that statement of work that you think you are going to have, 
and looking at and seeing, is this going to open it up for us 
for competition. We have done work looking at competition at 
DOD. You have competition advocates that are starting to get 
more involved and trying to promote more in competition. I 
think just as an example, doing it early, better understand 
your requirements up front, will hopefully give an increased 
likelihood that you are going to have better outcomes.
    Mr. Lankford. Right. I would agree on that. It depends on 
whether you are close to the end of the fiscal year or not on 
that decision as far as how much advance planning goes into it 
as well.
    I want to defer an additional 2 minutes real quick, it is 
the chairman's privilege on this one, I need to ask on where we 
are on trafficking in persons. We had a hearing that was 
extensive, talking about the issue, and especially dealing with 
State Department contracts in the Middle East and on our bases 
in Afghanistan and Iraq and third country nationals. No one 
disputed us on either panel that day to say this is not 
occurring. There was a common nodding of our heads as, we are 
fighting through this. No one came back to us and said, we need 
one more rule. The rules are in place, the processes seem to be 
in place, it is just not stopping. How do we stop indentured 
servitude on our bases and in our embassies?
    Ms. Jenkins. Well, the Federal Acquisition Institute, in 
partnership again with the Department of Homeland Security, 
developed a course, an online module on human trafficking, to 
make people aware, in the acquisition work force, of the signs 
of human trafficking as well as the FAR clause which is 
associated with that. We also worked with the Department of 
State in developing the requirements as a subject matter 
expertise. So that is available on the DAU learning management 
online system for the entire Federal work force and everybody 
else.
    Mr. Lankford. Part of our frustration was, we can't seem to 
find any contractor who has been suspended or debarred because 
of this.
    Ms. McFarland. Sir, the real issue is follow-through. I 
mean, as you stated, all of this is in place. There is only a 
certain part that you can get to with the teaching and the 
training. The second piece is follow-through.
    Mr. Lankford. Right. But if some contractor that is doing 
this feels no threat of being suspended or debarred, if the 
prime up the food chain from them feels no heat on it, they are 
not going to stop. They are making a ton of money and using 
people as slaves in the process, and they end up on our bases 
or in our embassies, and the people that are working around 
them, service members, don't know that. At some point, we have 
to be able to put some heat down and say, this has to stop.
    But that is the accountability on the other side. And what 
I am asking is, how do we get that? How do we get that 
accountability that somebody's head starts rolling in this 
process to say, for the first time, we know this is happening, 
we know it is happening consistently, we have a low threshold 
of proof, we have the suspension and the debarment on the facts 
that we are finding on the ground, you are suspended as we work 
through this process until we can get this resolved. And so 
suddenly the word begins to spread, cut it out.
    How do we get there?
    Mr. Jordan. Mr. Chairman, I think that first, identifying 
it is of critical importance. And it is really an oversight 
function. Obviously we support greater oversight. Contracting 
in a contingency environment is a little bit more complicated. 
I think here, within the United States, obviously the threat of 
suspension and debarment is substantial. Companies are very 
cognizant of it. I am not sure that subcontractors, third 
country nationals, for example, fully understand the threat of 
suspension and debarment, or for that matter, care. But I 
certainly think that there needs to be a greater focus on it. 
But I also think that in doing so, you need to understand the 
dynamics of a contingency contracting environment.
    Mr. Lankford. I understand that, somewhat, if you haven't 
been here 10 years. That's tougher to explain after 10 years, 
and it is even tougher to explain in our embassies on the 
ground.
    I need to defer to Mr. Connolly as well.
    Mr. Connolly. I would just thank you for bringing that up, 
Mr. Chairman, because I think, as a take-back, but in our 
hearing, not a single prosecution has occurred. Not one. There 
are tens of thousands of contracts in Afghanistan and Iraq, 
tens of thousands, thousands of contractors, and the practice 
is widespread.
    We heard testimony, tens of thousands, maybe many more, of 
human beings who are being trafficked as sort of payoff the 
contracts or just necessary costs of doing business, 
irrespective of the terrible harm to these human beings. Not 
one that I know of debarment or suspension. Three referred for 
sort of a warning and that was it. And a practice, undisputed 
testimony, widespread.
    And from our point of view, absolutely on a bipartisan 
basis, not acceptable, not acceptable. It has to be stopped, 
and we have to go beyond training, as you said. It is about 
enforcement. How serious are we about this. And we aren't 
serious enough.
    But at any rate, I certainly echo the chairman's sentiments 
on that, and we are going to stay on top of that.
    Coming back to the topic at hand, the chairman earlier 
asked some questions about, well, sort of, we saw the 
acquisition and procurement and contracting personnel sort of 
shrink in ratio to the growth in contracting in the previous 
decade. We have done some catchup, especially made some 
progress in the Pentagon. But now we are seeing contracts sort 
of stagnant, and maybe they will fall given the budgetary 
pressures we are all under. And we don't want to sort of be in 
this kind of cycle.
    I guess I want to focus less on the numerical balance and 
more on the qualitative aspects of why this makes sense as an 
investment. Because when we have smart contracting officers, 
acquisition officers in the Federal Government, we can save 
money, we can make sure things are being run efficiently, we 
can avoid cost overruns and the kind of tragic problem the 
chairman talked about in terms of human trafficking. Mr. 
Hutton, I want to give you an opportunity to comment on that.
    Mr. Hutton. In terms of the quality and the expertise 
versus the numbers, you are absolutely right. And when you are 
playing catchup, which I think is what we are doing, you are 
going to get a large influx of newer people. And they can get 
that initial training and they can get the certification. But 
just like in GAO, we are building our work force. We have a lot 
of junior people. And we are spending a lot of time on the day 
to day, on the job training, trying to bring them and their 
expertise up to the level where we want them to be to be 
actually journeymen and go out on their own.
    It is certainly a big challenge. I think you have to have 
the mentors. If you are losing too many of your senior people, 
then who is going to train those folks? Plus the fact that you 
have a work force and it might depend on each agency, they got 
a lot to do. And when you have a lot to do, you wonder 
sometimes, are we just being too quick and not doing the job as 
thoroughly as we should. So I think it is a tradeoff of like 
the workload, it is a tradeoff of the demographics of the 
people we have, do we have the senior people to mentor, and 
just the overall number of people. When you are bringing in a 
lot of new people I think this is a little bit of a transition 
for everyone right now.
    Mr. Connolly. Presumably it is also about technical 
knowledge. We are now getting, it is one thing to say, I need 
you to manage a contract whereby we produce and we order 
300,000 pencils every year. That is one kind of contract. But 
we are moving out of that kind of contract. We are now talking 
about sort of broad systems integration contracts that require 
fairly intimate knowledge of how technology works, so that when 
somebody in the department says, here is what I need, I have 
the skill set to translate that into the technical language and 
the RFP and then manage that once the contract is awarded to 
make sure that those specs are being met.
    And sometimes the lay person, who is deeply into the 
mission says, they may not have an understanding of the 
boundaries of technology or what that really means in terms of 
cost, linking up the field offices and data, big data bases and 
data entry and the coordination and being able to recognize, I 
mean, those are all different kinds of capabilities we wouldn't 
have even talked about 30 years ago, but they are commonplace 
today.
    So I assume it is also about technical expertise. And that 
has to be, that is a concern of mine, Mr. Chairman, because the 
higher level of technical expertise, now you are competing with 
the private sector trying to get those people. And the private 
sector generally pays a lot more than we do in the public 
sector. And that is of concern to me moving forward, will we be 
able to have that skill base. Not just how you manage the 
contract, but do you have the technical knowledge to make sure 
that contract is being fulfilled and the taxpayer interests, 
and I know I talk too much.
    Mr. Hutton. No, that is fine, Mr. Connolly. And I would 
agree with you, and that is why it is important to really have 
a good understanding of what you are buying and what your 
current capacity is. Things change all the time. Like you said, 
10 years ago, we weren't buying half the things we are now, but 
we are buying very technically complex things.
    So you have to constantly be revisiting your acquisition 
Workforce plan and have a good understanding of who we have 
again and what the current capacity is. We have done some work 
looking at acquisition planning, as I mentioned earlier. Just 
some anecdotes, people were starting the process, they had the 
requirements, yes, it was very technical. They started bringing 
in those, anybody within the organization that had insights on 
some of these technical issues. Some of the agencies are 
bringing in like business specialists or industrial type people 
to help support the front end of the process. Those are certain 
ways you can do it. But of course, for certain types of things, 
you might have to get the expertise outside.
    But the important thing is, you do that up front, you do it 
early enough so you really nail down what the heck it is we are 
buying.
    Mr. Connolly. Can I just ask one more question, Mr. 
Chairman? And I think it is fairly brief.
    We have 24 agencies figuring out how to do smart 
contracting. And some of them avail themselves of FAI, some 
might avail themselves of DAU, some may avail themselves of 
both. But they also do their own training. Your point of view 
about how well we are looking at best practices, we are 
creating some base uniform standards for all contracting 
officers and how this coordination works or does.
    Mr. Hutton. Well, I will have to say, sir, we have gotten a 
request recently by the full committee, about a month ago, and 
it has asked us to look at the role OFPP plays as well as FAI 
in the training of civilian acquisition professionals. We have 
talked this afternoon that there are several agencies that have 
their own institutes and academies. I can't tell you today how 
many there are out there and who they are serving and what type 
of training. Maybe the folks on the panel can, but we haven't 
done work in that area.
    But we have been asked to look at that particular issue, as 
well as the physical location of the training facilities and 
the cost to develop and deliver that training. I think that 
review is going to be touching on some issues we haven't looked 
at more recently. And I think that is going to help inform a 
lot of the discussion here.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Lankford. A quick follow-up on that as well.
    You had mentioned all the different academies. Do we know 
how many training academies are out there?
    Ms. Jenkins. Sir, I don't know the exact number. But I can 
let you know that it is part of the legislation that requires 
each senior procurement exec to establish a line item in their 
budget to train their acquisition work force. So my guess is 
that every agency is complying with the regulation and 
therefore is providing some form of training, whether it is 
sending them to individual vendor locations or they are 
establishing central locations, like the VA, DHS, Treasury.
    Mr. Lankford. Is there some collaboration that could occur, 
that could be coordinated to be able to combine some of these 
or suggest combination for smaller agencies and say, three or 
four of you, let's come together and find a way to do this more 
efficiently? Obviously we will talk about it all day, and we 
will talk about for a long time about budget issues. So are 
there some of those things being explored?
    Ms. Jenkins. Absolutely, and I am actually glad you asked 
that question in that way. Because we have at FAI developed the 
Federal Acquisition Institute Training Application System. I 
mentioned it before, and it is a robust work force management 
tool. But what it actually also allows is every agency to load 
its course offerings into the system and any other agency can 
see when that agency doesn't fill a seat that there are open 
seats. So no seat would go left unfilled at the expense of the 
taxpayers' resources.
    Additionally, as we move toward the training consortium 
board, we will move into trying to collaborate on the 
development of new courseware.
    Mr. Lankford. So you are targeting to have your training 
areas as full as the airplanes coming in and out of Reagan 
Airport?
    Ms. Jenkins. More so.
    Mr. Lankford. Okay, that would be terrific. Any other 
collaboration that is currently occurring between the two major 
groups here? Obviously there are a lot of resources between the 
two of you I am hearing, Web site development, and there are 
certification issues and trying to share some of that. Other 
projects that are ongoing that we need to be made aware of, as 
far as sharing resources?
    Ms. McFarland. One of the main efforts that we are trying 
to do together is have the same learning management system. If 
we take our systems close together, as we upgrade our courses 
and our curriculum, they can take advantage of it and the same 
thing the other way around. So really the central IT, as I 
emphasized during my testimony, is very important.
    Mr. Lankford. Okay. Yes, rebuilding the wheel is not 
important. If we can take Web sites, we can take certifications 
and adapt them, that is much preferred.
    Mr. Connolly, do you have anything final?
    Mr. Connolly. Mr. Chairman, I just want to thank you. This 
is a very important hearing. This topic, while maybe not 
universally sexy, the taxpayers' interest is lost or won, 
frankly, at this level of management. And it is so critical. 
And it may seem arcane, but it is very important. I just thank 
you and congratulate you for having this hearing, because this 
is one are I am confident we can proceed in a very bipartisan 
basis. Thank you.
    Mr. Lankford. I thank you and thank you for your time as 
well, getting into this and going through all the research and 
information and the work you are doing on it. I look forward to 
continuing to hear the progress, as we will meet again in the 
days to come, and be able to get an update on where we are. 
With that, we are adjourned.
    [Whereupon, at 3:05 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 71963.044

                                 <all>

</pre></body></html>
